                             CLOSEOUT FOR M 96040010

        On 9 April 1996, an NSF program director' brought two allegations of misconduct in
 science to OIG's attention.      m,     two ad hoc reviewers, complainants l2 and 2,3
independently alleged that the subject's4 research project in his NSF proposal5 had already
been completed. Complainant 1 explained that he received the subject's co-authored
manuscript6 and his NSF proposal for review, simultaneously. He said that the manuscript,
which was not cited in the NSF proposal, discussed the results of the proposed research
project. Complainant 1 described the subject's NSF proposal as a reworded version of the
manuscript. The program director obtained a copy of the manuscript from the subject and
determined that about half of the research in the proposal appeared to have been described in
the manuscript. Complainant 2 explained that he had attended a conference, prior to his
receipt of the subject's proposal for review, at which the subject presented results of the
proposed research project.

       Second, complainant 1 alleged that' the subject misrepresented information in the NSF
proposal. He said the subject's manuscript listed outside support that he had not included in
his NSF Current and Pending Support (CPS) form in the proposal.

        OIG's comparison of the subject's NSF proposal and manuscript confirmed that they
contained similar text and figures and that the subject had not referred to the manuscript in
the proposal. OIG also observed that the CPS form in the proposal did not include two
awards acknowledged in the manuscript. OIG's review of the events surrounding the
submission of the subject's proposal and manuscript showed that: 1) NSF received the
subject's proposal about 2 weeks after the subject and his institution's Authorized
Organizational Representative signed and dated the Cover Sheet; 2) the co-authored
manuscript was received by the journal 3 days after NSF received the subject's NSF
proposal; and 3) the manuscript was published about a year later.' OIG also determined that
the subject had submitted four proposals about the same ideas over a 3-year period. The fmt




                                         Page 1 of 2                               M 96-10
                             CLOSEOUT FOR M 96040010

 three proposals were declined, the third of which is the focus of this inquiry. The fourth
 proposal was awarded.

        OIG sought an explanation fiom the subject. The subject told OIG that his NSF
 proposal "should have been more explicit in stating that what [they] intended to do was a re-
 evaluation and a re-testing of the methods, data, etc, of the earlier pilot study." He said he
 was "remiss" by not providing a full explanation about the completed pilot study in the third
proposal. He explained that the pilot study was completed as part of his ongoing project to
 gather more information to improve his chances for funding. Further, he said that the pilot
study was initially discussed in an earlier co-authored manuscriptgwith two graduate students
that was submitted about 6 months before he submitted his third NSF proposal. He explained
that he had been told several months before he submitted his NSF proposal by the chief
editor of the journal, who was also a colleague at his institution, that the earlier manuscript
would probably be rejected. He documented that he received official notification of the
rejection at about the same time he prepared his third NSF proposal. OIG also determined
that the manuscript sent to complainant 1 was received by the journal after the third proposaI
had been signed and submitted to NSF.

        OIG concluded that the subject was not required to list either manuscript in his
proposal. Further, the subject was not requesting h d s for work he had already completed.
In fact, the subject's fourth proposal contained evidence that he had continued gathering data
to strengthen his ongoing project.

       The subject acknowledged that he should have been more careful in preparing the
CPS form in the proposal. He said he failed to list two awards involving stipend support for
himself and a student." OIG observed that the subject had appropriately listed all his active
awards in his fourth NSF proposal. OIG concluded that the subject's omission of the two
awards fiom his CPS form, in this case, was careless and, as such, not misconduct in science.

       This inquiry is closed and no M e r action will be taken.

cc: Staff Scientist, AIG-Oversight, Legal, IG
